No. __________

IN THE SUPREME COURT OF THE
UNITED STATES
____________
EMPLOYER SOLUTIONS STAFFING GROUP, LLC,
ET AL.,
Petitioners,
v.
EUGENE SCALIA, SECRETARY OF LABOR, U.S.
DEPARTMENT OF LABOR,
Respondent.
___________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
___________
APPENDIX
Rebecca J. Levine
Counsel of Record
REBECCA LEVINE LAW PLLC
5200 Willson Rd., Suite 150
Edina, MN 55424
(952) 836-2711
rlevine@rebeccalevinelaw.com
Counsel for Petitioners

A-2

APPENDIX
TABLE OF CONTENTS
United States Court of Appeals for the Ninth Circuit,
Opinion in 18-16493, Issued March 2, 2020…………..A-4
United States Court of Appeals for the Ninth Circuit,
Order Denying Petition for Rehearing En Banc in 1816493, Issued April 14, 2020 ......................................A-17
United States District Court for the District of Arizona,
Order of Final Judgment in CV-16-02916-PHX-ROS,
Entered July 10, 2018...………………………….….…..A-18
United States District Court for the District of Arizona,
Order Granting Summary Judgment in CV-16-02916PHX-ROS, Issued June 27, 2018………………….…..A-22
United States District Court for the District of Arizona,
Order Dismissing With Prejudice New Way Staffing,
LLC dba Sync Staffing and Daniela Rodriguez in CV-1602916-PHX-ROS, Issued September 25, 2017…….....A-33
United States District Court for the District of Arizona,
Order Granting Motions to Dismiss in CV-16-02916PHX-ROS, Issued December 16, 2016 .......................A-35
United States District Court for the District of Arizona,
Order Granting Motions to Dismiss in CV-16-02916PHX-ROS, Issued March 27, 2017 .............................A-44
Declaration of Michaela Haluptzok In Support Of
Defendants Employer Solutions Staffing Group, LLC,
Employer Solutions Staffing Group II, LLC, Employer
Solutions Staffing Group III, LLC, And Employer
Solutions Staffing Group IV, LC, In Opposition To
Plaintiff’s Motion For Summary Judgment……….…A-46

A-3

Declaration of Christopher Levine In Support Of
Defendants Employer Solutions Staffing Group, LLC,
Employer Solutions Staffing Group II, LLC, Employer
Solutions Staffing Group III, LLC, And Employer
Solutions Staffing Group IV, LC, In Opposition To
Plaintiff’s Motion For Summary Judgment……….…A-52

A-4

FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
No. 18-16493
D.C. No. 2:16-cv-02916-ROS
Eugene SCALIA, Secretary of Labor, U.S. Department of
Labor,
Plaintiff-Appellee,
v.
EMPLOYER SOLUTIONS STAFFING GROUP, LLC, a
limited liability company; Employer Solutions Staffing
Group II, LLC, a limited liability company; Employer
Solutions Staffing Group III, LLC, a limited liability
company; Employer Solutions Staffing Group IV, LLC, a
limited liability company,
Defendants-Appellants.
No. 18-16493
Argued and Submitted February 3, 2020
Phoenix, Arizona
Filed March 2, 2020
Appeal from the United States District Court for the
District of Arizona, Roslyn O. Silver, District Judge,
Presiding, D.C. No. 2:16-cv-02916-ROS

A-5

Before: Susan P. Graber, Andrew D. Hurwitz, and Eric
D. Miller, Circuit Judges.
OPINION
GRABER, Circuit Judge:
Employer Solutions Staffing Group and three
related companies (collectively, “ESSG”)1 appeal from
the summary judgment entered in favor of the Secretary
of Labor in this action challenging ESSG’s failure to pay
overtime to employees who worked more than 40 hours
in a workweek, in violation of the Fair Labor Standards
Act of 1938 (“FLSA”), 29 U.S.C. §§ 201–219. ESSG also
disputes the dismissal of its cross-claims against other
defendants below for indemnification or contribution.
We affirm.
BACKGROUND
ESSG, a staffing company, contracts with other
companies to recruit employees and place them at
jobsites for which ESSG handles administrative tasks,
such as payroll processing. ESSG concedes that it
qualifies as an “employer” of the recruited employees
under the FLSA, 29 U.S.C. § 203(d).
In 2012, ESSG contracted with Sync Staffing,
which placed the recruited employees at a jobsite run by
1

Four related companies with nearly identical names are defendants here; they
usually refer to themselves using the singular “ESSG.”

A-6

TBG Logistics, where the employees unloaded deliveries
for a grocery store. TBG maintained a spreadsheet of the
employees’ hours. For each pay period in November 2012
and thereafter, TBG sent the spreadsheet to Sync, which
forwarded it to ESSG.
Only one of ESSG’s employees, Michaela
Haluptzok, was responsible for processing the TBG
payroll. ESSG trained Haluptzok on the FLSA’s
requirements. The first time that Haluptzok received
one of the spreadsheets, she prepared and sent to Sync a
report showing that employees who had worked more
than 40 hours per week would receive overtime pay for
those hours. But when a Sync employee called
Haluptzok and told her—without explaining why this
action would be appropriate—to pay all of the hours as
“regular hours” instead of overtime, Haluptzok complied.
To follow the Sync employee’s instructions,
Haluptzok had to dismiss numerous error messages
from
Defendant’s
payroll
software.
Haluptzok
understood that not paying overtime for the qualifying
employees triggered the error messages, but she
disregarded the messages anyway. After processing her
first spreadsheet in this manner, Haluptzok did the
same thing for every future spreadsheet. ESSG’s
relationship with TBG and Sync ended on July 27, 2014;
by that date, more than 1,000 violations had occurred in
which employees did not receive their earned overtime
pay.
The Secretary sued ESSG, TBG, Sync, and
another company in August 2016, more than two years
after the final overtime violation occurred. ESSG

A-7

brought cross-claims for contribution or indemnification
against the other defendants. The district court
dismissed those claims under Federal Rule of Civil
Procedure 12(b)(6). The district court also denied
Defendant’s motion to file a third-party complaint
seeking contribution from a grocery store where some
recruited employees worked. The Secretary reached
consent judgments with the other companies, so only
ESSG remained in the case when the Secretary moved
for summary judgment. The district court granted the
Secretary’s motion, held that ESSG had violated the
FLSA willfully, and ordered ESSG to pay approximately
$78,500 in unpaid overtime wages plus an equal amount
in liquidated damages.
STANDARD OF REVIEW
We review de novo a grant of summary judgment.
Flores v. City of San Gabriel, 824 F.3d 890, 897 (9th Cir.
2016). We also review de novo “the application of legal
principles to established facts.” Id. at 905. Finally, we
review de novo a dismissal under Rule 12(b)(6). Fields v.
Twitter, Inc., 881 F.3d 739, 743 (9th Cir. 2018).
DISCUSSION
We first address ESSG’s arguments that it cannot
be liable for the actions of a low-level employee such as
Haluptzok and that, regardless, any FLSA violations
were not willful and instead occurred in good faith.
We then discuss whether the FLSA allows a liable
employer to seek indemnification or contribution from
other employers.

A-8

A. Liability
Haluptzok knew that the relevant employees were
working more than 40 hours per week without receiving
overtime pay. ESSG chose Haluptzok as its agent for
payroll processing, so it cannot disavow her actions
merely because she lacked a specific job title or a certain
level of seniority in the company. See United States v.
Graf, 610 F.3d 1148, 1156 (9th Cir. 2010) (“As an
inanimate entity, a corporation must act through
agents.” (quoting CFTC v. Weintraub, 471 U.S. 343, 348
(1985))); see also Restatement (Third) of Agency § 1.01
(defining “agent” as one who “act[s] on the principal’s
behalf and subject to the principal’s control”). Allowing
ESSG to evade liability simply because none of its
“supervisors” or “managers” processed the payroll would
create a loophole in the FLSA and run counter to the
statute’s purpose of “protect[ing] all covered workers
from substandard wages and oppressive working hours.”
Williamson v. Gen. Dynamics Corp., 208 F.3d 1144, 1150
(9th Cir. 2000) (internal quotation marks omitted).
Consistent with the law of agency, we impute
Haluptzok’s actions to ESSG. Because Haluptzok
admitted that she knew the recruited employees were
not being paid overtime owed to them, the district court
correctly found no dispute of material fact as to ESSG’s
ultimate liability under the FLSA. See Forrester v. Roth’s
I.G.A. Foodliner, Inc., 646 F.2d 413, 414 (9th Cir. 1981)
(“[A]n employer who knows or should have known that
an employee is or was working overtime must comply
with the provisions of [29 U.S.C. §] 207[ (a) ].”).
B. Willfulness

A-9

Ordinarily, a two-year statute of limitations
applies to claims under the FLSA. 29 U.S.C. § 255(a).
But for a “willful violation,” the limitations period
extends to three years. Id. Because the Secretary sued
ESSG more than two years after the last violation,
ESSG must have acted willfully for this action to be
timely.
A violation is willful when “the employer either
knew or showed reckless disregard for ... whether its
conduct was prohibited by the [FLSA.]” McLaughlin v.
Richland Shoe Co., 486 U.S. 128, 133 (1988). For more
than a year, Haluptzok dismissed the payroll software’s
repeated warnings that employees might not be
receiving earned overtime pay. Although she (at least
initially) acted on Sync’s instructions not to pay
overtime, she never received any explanation from Sync
that justified dismissing the software’s error messages.
Thus, through its agent, ESSG recklessly “disregarded
the very possibility that it was violating the statute.”
Alvarez v. IBP, Inc., 339 F.3d 894, 908–09 (9th Cir. 2003)
(internal quotation marks omitted).2 Accordingly, the
three-year statute of limitations applies to the
Secretary’s claim, making this action timely.
2

ESSG questions whether our decision in Alvarez comports with the
“reckless disregard” standard set forth in Richland Shoe. See Flores
v. City of San Gabriel, 824 F.3d 890, 907–08 (9th. Cir. 2016)
(Owens, J., concurring). Of course, we are not free to revisit Alvarez.
See Miller v. Gammie, 335 F.3d 889, 892–93 (9th Cir. 2003) (en
banc). In any event, based on Haluptzok’s admissions, we have little
trouble concluding that ESSG recklessly disregarded its obligations
under the FSLA even under the strictest reading of Richland Shoe.

A-10

C. Liquidated Damages
The FLSA mandates liquidated damages in an
amount equal to the unpaid overtime compensation
unless an employer acted in “good faith” and had
“reasonable grounds” to believe that it was not violating
the FLSA. 29 U.S.C. §§ 216(b), 260. Because ESSG’s
violations were willful, it could not have acted in good
faith. See Chao v. A-One Med. Servs., Inc., 346 F.3d 908,
920 (9th Cir. 2003) (“[A] finding of good faith is plainly
inconsistent with a finding of willfulness.”).
ESSG insists that an employer can act in good
faith while willfully violating the FLSA. But, as a threejudge panel we cannot overrule Chao in the absence of
intervening en banc or Supreme Court precedent. Miller
v. Gammie, 335 F.3d 889, 892–93 (9th Cir. 2003) (en
banc). Indeed, Chao aligns with precedent in most other
circuits that have reached the issue. See Alvarez Perez v.
Sanford-Orlando Kennel Club, Inc., 515 F.3d 1150, 1166
(11th Cir. 2008) (agreeing with Chao, joining “the
majority side of the circuit split on this issue,” and
collecting cases). Thus, we affirm the award of liquidated
damages.
D. Indemnification/Contribution
The FLSA’s text does not expressly address
whether an employer may seek indemnification or
contribution from another employer, but ESSG contends
that the statute implicitly permits those remedies.
Alternatively, ESSG asks us to recognize those remedies
under federal common law.

A-11

1.
Whether
the
FLSA
Implicitly
Indemnification or Contribution

Allows

“In determining whether a federal statute that
does not expressly provide for a particular private right
of action nonetheless implicitly created that right, our
task is one of statutory construction.” Nw. Airlines, Inc.
v. Transp. Workers Union, 451 U.S. 77, 91 (1981). We
must ascertain “whether Congress intended to create the
private remedy—for example, a right to contribution—
that the [litigant] seeks to invoke.” Id. In recent decades,
the Supreme Court has adopted a “cautious course
before finding implied causes of action.” Ziglar v. Abbasi,
137 S. Ct. 1843, 1855 (2017). Four factors guide our
inquiry: (1) the statute’s text; (2) “the underlying
purpose and structure of the statutory scheme”; (3) “the
likelihood that Congress intended to supersede or to
supplement existing state remedies”; and (4) the
statute’s legislative history. Nw. Airlines, 451 U.S. at 91;
accord Tex. Indus., Inc. v. Radcliff Materials, Inc., 451
U.S. 630, 639 (1981).
ESSG largely ignores the relevant factors and
argues that, because employers face joint and several
liability under the FLSA, they necessarily must have a
right to seek contribution from one another. Defendant
emphasizes 29 C.F.R. § 791.2 (2019), which provides
that “all joint employers are responsible, both
individually and jointly, for compliance with all of the
applicable provisions of the act.” A newer, not-yeteffective version of this regulation refers expressly to
joint and several liability: “[A] joint employer is jointly
and severally liable with ... any other joint employers for

A-12

compliance with all of the applicable provisions of the
Act.” Id. (2020).3 Of course, the regulation does not
clarify what Congress intended when it enacted the
FLSA in 1938; it provides only the Secretary’s current
interpretation of the FLSA.
But the Supreme Court has rejected the argument
that joint and several liability always goes hand-in-hand
with contribution. See Tex. Indus., 451 U.S. at 646 (“Nor
does the judicial determination that defendants should
be jointly and severally liable suggest that courts also
may order contribution, since joint and several liability
simply ensures that the plaintiffs will be able to recover
the full amount of damages from some, if not all,
participants.”). And the common law “provided no right
to contribution among joint tortfeasors.” Id. at 634.
ESSG does not merely owe a debt to its employees; it
committed a wrong against them. Thus, we remain
unpersuaded that Congress necessarily codified a right
to contribution when it enacted the FLSA.
We turn now to the four factors. The Second
Circuit, applying the four-factor framework from
Northwest Airlines, has held that the FLSA does not
provide a right to contribution or indemnification for
liable employers. Herman v. RSR Sec. Servs. Ltd., 172
F.3d 132, 144 (2d Cir. 1999). We agree.
First, the FLSA’s text says nothing about a right
to contribution or indemnification for employers who
have violated the statute. That silence “is not dispositive
if, among other things,” the statute’s text suggests that
3

The newer version takes effect on March 16, 2020.

A-13

it was “enacted for the special benefit of a class of which
[ESSG] is a member.” Nw. Airlines, 451 U.S. at 91–92.
1571. But, the FLSA’s text suggests exactly the opposite.
See 29 U.S.C. § 202 (noting the congressional policy
behind the FLSA of eliminating “labor conditions
detrimental to the maintenance of the minimum
standard of living necessary for health, efficiency, and
general well-being of workers”).
Second, as its text suggests, the FLSA’s “central
purpose” is to “enact minimum wage and maximum hour
provisions designed to protect employees,” not
employers. Williamson, 208 F.3d at 1154; see also
Herman, 172 F.3d at 144 (stating that the FLSA “was
designed to regulate the conduct of employers for the
benefit of employees”). In other words, ESSG belongs to
the class whose conduct Congress intended to control
“for the protection and benefit of an entirely distinct
class.” Tex. Indus., 451 U.S. at 639 (quoting Piper v.
Chris-Craft Indus., Inc., 430 U.S. 1, 37 (1977)). The
FLSA’s statutory scheme resembles those of the Equal
Pay Act and Title VII of the Civil Rights Act, for which
Northwest Airlines found no implied right to
contribution for employers. Similarly, the FLSA “has a
comprehensive remedial scheme as shown by the
‘express provision for private enforcement in certain
carefully defined circumstances,’ ” Herman, 172 F.3d at
144 (quoting Nw. Airlines, 451 U.S. at 93), and for
enforcement by the federal government in other
circumstances, 29 U.S.C. § 217. Indeed, “broader or more
comprehensive coverage of employees ... would be
difficult to frame.” United States v. Rosenwasser, 323
U.S. 360, 362 (1945).

A-14

Third, “[t]he comprehensive character of the
remedial scheme expressly fashioned by Congress
strongly evidences an intent not to authorize additional
remedies” beyond those expressly allowed under the
statute. Nw. Airlines, 451 U.S. at 93–94. The FLSA
provides
“comprehensive
statutory
remedies,”
Williamson, 208 F.3d at 1155, and it is “not within our
competence as federal judges to amend ... comprehensive
enforcement schemes” by adding private remedies that
Congress never intended to allow, Nw. Airlines, 451 U.S.
at 94.
Fourth, and finally, the FLSA’s legislative history
is “silent on a right to contribution or indemnification”
for employers. Herman, 172 F.3d at 144 (collecting the
relevant legislative history). In sum, we see no
indication that Congress intended to create a right to
contribution or indemnification for employers under the
FLSA.
ESSG argues that allowing it to seek contribution
or indemnification from other employers would advance
the FLSA’s purpose in various ways, including by
encouraging employers to be more proactive about
complying with the statute. Maybe so, but such policy
questions belong to “Congress, not the courts, to resolve.”
Tex. Indus., 451 U.S. at 646. “If the statute itself does
not ‘display an intent’ to create ‘a private remedy,’ then
‘a cause of action does not exist and courts may not
create one, no matter how desirable that might be as a
policy matter, or how compatible with the statute.’ ”
Ziglar, 137 S. Ct. at 1856 (brackets omitted) (quoting
Alexander v. Sandoval, 532 U.S. 275, 286–87 (2001)).
Following the Supreme Court’s “cautious course,” id. at

A-15

1855, we decline to find an implied cause of action for
contribution or indemnification under the FLSA.
2.
Whether a Right to
Contribution
or
Indemnification Arises Under Federal Common
Law
Federal courts have the authority to craft federal
common law in limited circumstances. First, we may
undertake this type of lawmaking “in those few
instances where ‘a federal rule of decision is necessary to
protect [a] uniquely federal interest.’ ” Mortgs., Inc. v.
U.S. Dist. Court, 934 F.2d 209, 213 (9th Cir. 1991) (per
curiam) (quoting Tex. Indus., 451 U.S. at 640). “The
right of recovery from another wrongdoer, however, does
not implicate any such interests.” Id. Thus, this category
does not help ESSG.
Similarly, we may create federal common law “in
those areas dominated by strong national or federal
concerns such as controversies between states, admiralty
matters, or foreign relations.” Id. Plainly, this category
does not apply here.
Finally, “Congress may empower federal courts to
make federal common law when a statute contains
sweeping language and its legislative history indicates
Congress’s expectation that the courts will ‘give shape to
the statute’s broad mandate by drawing on common-law
tradition.’ ” Id. (quoting Nat’l Soc’y of Prof’l Eng’rs v.
United States, 435 U.S. 679, 688 (1978)). In National
Society of Professional Engineers, for example, the Court
addressed the Sherman Act, for which “[t]he legislative
history makes it perfectly clear that [Congress] expected

A-16

the courts to give shape” to the statute’s broad contours.
435 U.S. at 688. By contrast, neither the FLSA’s text nor
its legislative history suggests that Congress expected
the courts to go beyond the “judicial interpretation of
ambiguous or incomplete provisions” that proves
necessary for “almost any statutory scheme.” Nw.
Airlines, 451 U.S. at 97.
When “Congress has enacted a comprehensive
legislative scheme” that includes “integrated procedures
for enforcement,” we presume that Congress did not
intend for us “to supplement the remedies enacted.”
Mortgs., 934 F.2d at 213. The FLSA is just such a
comprehensive statute. It includes procedures for both
“private enforcement in certain carefully defined
circumstances,” Herman, 172 F.3d at 144 (internal
quotation marks omitted), and (as in this case)
enforcement by the Secretary, § 217. Thus, this final
category also does not help ESSG.
We thus join the Second Circuit in holding that
the FLSA does not imply a right to contribution or
indemnification for liable employers. We also decline to
make new federal common law that recognizes those
rights.
AFFIRMED.

A-17

Case: 18-16493, 04/14/2020, DktEntry: 59
FILED APR 14, 2020
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
No. 18-16493
D.C. No. 2:16-cv-02916-ROS
District of Arizona, Phoenix
ORDER
Before: GRABER, HURWITZ, and MILLER, Circuit
Judges.
The panel has voted to deny Appellants’ petition
for panel rehearing.
The full court has been advised of Appellants’
petition for rehearing en banc, and no judge of the court
has requested a vote on it.
Appellants’ petition for panel rehearing and
rehearing en banc, Docket No. 58, is DENIED.

A-18

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
R. Alexander Acosta,
Plaintiff,
v.
TBG Logistics LLC, et al.,
Defendants.
No. CV-16-02916-PHX-ROS
JUDGMENT
Pursuant to the Court’s Granting the Plaintiff’s Motion
for Summary Judgment:
1. JUDGMENT IS HEREBY ENTERED AND IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that, pursuant to Section 17 of the Act (29 U.S.C. §217),
Defendants Employer Solutions Staffing Group, LLC,
Employer Solutions Staffing Group II, LLC, Employer
Solutions Staffing Group III, LLC, Employer Solutions
Staffing Group IV, LLC their officers, agents, servants,
employees, and all persons acting in their behalf and
interest (collectively, “ESSG”); hereby are permanently
enjoined and restrained from violating the provisions of
the Act in any of the following manners:
a. ESSG shall not, contrary to FLSA sections 7 and
15(a)(2), employ any employee who in any workweek is
engaged in commerce, within the meaning of the FLSA,
or is employed in an enterprise engaged in commerce or
in the production of goods for commerce, within the
meaning of FLSA § 3(s), for any workweek longer than

A-19

40 hours unless such employee receives compensation
for his or her employment in excess of 40 hours in such
workweek at a rate not less than one and one-half times
the regular rate at which he or she is employed.
b. ESSG shall not continue to withhold the amount of
$78,518.28, representing overtime wages due under
Section 17 of the FLSA (29 U.S.C. §217).
2. FURTHER, JUDGMENT IS HEREBY ENTERED,
pursuant to Section 16 of the Act (29 U.S.C. § 216),
against ESSG in the total amount of $157,036.56. This
sum represents the unpaid overtime wages referenced
above, and an equal amount in liquidated damages.
Accordingly:
a. Within 30 days of the date of this Judgment, ESSG
shall pay to Plaintiff the sum of $78,518.28 which
represents the unpaid overtime wages hereby found to
be due, for the period from August 30, 2013 to July 27,
2014 (“Subject Period”), to the employees named in
Exhibit A, attached hereto and made a part hereof
(“Exhibit A”), in the amounts set forth therein.
b. Within 30 days of the date of this Judgment, ESSG
shall further pay to Plaintiff as liquidated damages the
additional sum of $78,518.28 hereby found to be due, for
the Subject Period, to the employees named in Exhibit A,
in the amounts set forth therein.
c. The monetary provisions of this Judgment shall be
deemed satisfied upon Defendants’ delivery to District
Director Eric Murray, US Dept. of Labor, Wage & Hour

A-20

Division, 230 N. First Avenue, Suite 402, Phoenix,
Arizona 85003 of the following:
i. A certified check or cashier’s check in the amount of
$78,518.28 made payable to the order of the “Wage and
Hour Div., Labor” and referencing “ESSG BW” on the
face of the check; and,
ii. A certified check or cashier’s check in the amount of
$78,518.28 made payable to the order of the “Wage and
Hour Div., Labor” and referencing “ESSG LDs” on the
face of the check.
3. Plaintiff shall distribute the proceeds from the checks
referred to in paragraph 2(c)(i)-(ii) to the persons named
in Exhibit A, or to their estates, if that be necessary. Any
amounts of unpaid overtime wage or liquidated damages
not so paid within a period of three (3) years from the
date of receipt thereof shall, pursuant to Section 16(c) of
the Act (29 U.S.C. § 216(c)), be deposited into the
Treasury of the United States as miscellaneous receipts.
4. Plaintiff shall recover from ESSG post-judgment
interest at the statutory rate.
5. This Court shall retain jurisdiction of this action for
purposes of enforcing compliance with the terms of this
Judgment.
6. The Clerk of Court shall close this case.
Dated this 9th day of July, 2018.
Honorable Roslyn O. Silver
Senior United States District Judge

A-21

[Listing of Named Individuals Represent by the
Secretary of Labor and Amounts of Individual
Monetary Judgment Awards Omitted]

A-22

United States District Court, D. Arizona
R. Alexander ACOSTA,4 Plaintiff,
v.
TBG LOGISTICS LLC, et al., Defendants.
No. CV-16-02916-PHX-ROS
Signed 06/27/2018
ORDER
Honorable Roslyn O. Silver, Senior United States
District Judge
Defendant ESSG’s payroll processing employee
knew that, from August 2013 to July 2014, other ESSG
employees were working more than 40 hours per week
but not receiving overtime pay. The Secretary of Labor
(“Plaintiff”) now moves for summary judgment, arguing
ESSG engaged in repeated “willful violation[s]” of the
Fair Labor Standards Act (“FLSA”). ESSG contends its
undisputed violations of the FLSA cannot qualify as
“willful” because it is a very large company that cannot
be expected to always comply with the FLSA. Moreover,
the relevant violations allegedly were the result of
negligence by an “entry level employee.” Neither ESSG’s
size nor the position of the payroll employee preclude a
finding of willfulness. And given that there are no

4

In April 2017, R. Alexander Acosta became the Secretary of Labor. He is
substituted as the named plaintiff. See Fed. R. Civ. P. 25(d).

A-23

disputed facts regarding what happened, Plaintiff’s
motion will be granted.
BACKGROUND
The relevant facts are undisputed. Defendant
ESSG5 is a “staffing company” that “recruit[s], place[s],
and assign[s]” people to work at various jobsites. ESSG
often enters into contracts with other companies
requiring those other companies “do the recruiting,
placing, and assigning” of employees while ESSG will
handle administrative matters, such as payroll
processing.
As relevant here, ESSG entered into a contract
with an entity known as Sync Staffing whereby Sync
Staffing located individuals to work at a jobsite run by
yet another company named TBG Logistics. At that
jobsite, employees worked under the direction of TBG
Logistics in unloading tractor trailers delivering grocery
store products. Despite not having direct contact with
the employees performing the work, ESSG concedes it
was an “employer” under the FLSA.
TBG Logistics, Sync Staffing, and ESSG worked
together to track the hours each employee worked and
the amount of pay each employee would receive. TBG
5

The parties use “ESSG” to refer to four defendants: Employer
Solutions Staffing Group, LLC; Employer Solutions Staffing Group
II, LLC; Employer Solutions Staffing Group III, LLC; and Employer
Solutions Staffing Group IV, LLC. The parties do not differentiate
between these entities and the Court will assume there are no
important distinctions. Thus, the Court will follow the parties' lead
and refer simply to “ESSG.”

A-24

Logistics kept a spreadsheet showing the number of
hours each employee worked and how those hours
should be paid, i.e. at the regular rate or at the increased
rate for overtime. Each pay period, TBG Logistics sent
that spreadsheet to Sync Staffing. Sync Staffing then
forwarded the spreadsheet to ESSG. Once ESSG
received the spreadsheet, an ESSG employee named
Michaela Haluptzok (“Haluptzok”) processed the payroll
and issued the paychecks.
In early November 2012, TBG Logistics sent the
first payroll spreadsheet to Sync Staffing. That
spreadsheet reflected many employees worked more
than 40 hours in a week but it stated all the hours
should be paid at the regular rate. Sync Staffing then
sent the spreadsheet to Haluptzok. Once she received
the information, Haluptzok prepared a preliminary draft
indicating how each employee would be paid. Because
many employees had worked more than 40 hours per
week, the preliminary draft reflected those employees
receiving 1.5 times their regular hourly wage for all
hours worked in excess of 40.
Haluptzok sent the draft to Sync Staffing but a
Sync Staffing employee called and told Haluptzok to
process the payroll exactly as specified by TBG Logistics.
That is, all hours should be paid “as straight time
regular hours,” i.e. no overtime. (Doc. 103-2 at 3).
Haluptzok “did not receive details” from Sync Staffing
why processing the payroll in that manner would be
appropriate. (Doc. 103-2 at 3). In fact, Haluptzok had no
“understanding of what type of work ESSG employees
were ... performing at TBG Logistics” and she did not
ask her superiors for guidance. (Doc. 103 at 13). Instead

A-25

of questioning the legality of Sync Staffing’s
instructions, Haluptzok processed the payroll without
paying any overtime.
When processing the payroll as Sync Staffing
instructed, Haluptzok had to dismiss error messages
generated by ESSG’s software program. Those error
messages indicated the employees who worked more
than 40 hours per week might not be receiving
“compensat[ion] at the proper rate.” (Doc. 98 at 4).
Having dismissed the error messages, the employees
were paid without any overtime premium.
Haluptzok processed the payroll for the employees
in the same manner during the following months.
Between August 30, 2013, and July 27, 2014, there were
“1103 instances where employees were not paid overtime
for hours over 40 in a week, an average of 22 violations
per week.” (Doc. 98 at 5). In processing the payroll for
those workweeks, Haluptzok had to repeatedly dismiss
the error messages generated by the software indicating
the pay might not be correct. The total amount of unpaid
overtime during that period was $78,518.28. (Doc. 98 at
5). ESSG’s relationship with Sync Staffing and TBG
Logistics ended on July 27, 2014.
Plaintiff filed the present suit on August 30, 2016.
The suit originally named as defendants ESSG, TBG
Logistics, Sync Staffing, and a few individuals. The
complaint alleged all the defendants had violated the
FLSA by failing to pay overtime. The only defendant still
contesting liability is ESSG. Plaintiff now seeks
summary judgment on its claim that ESSG’s behavior
constituted “willful” violations of the FLSA. ESSG

A-26

opposes that motion, claiming it is a large company that
usually complies with the FLSA. ESSG’s size, together
with the fact that Haluptzok was a low-level employee,
allegedly means there is at least a dispute of fact
whether its behavior was “willful.”
ANALYSIS
The FLSA provides for a two-year statute of
limitations “except that a cause of action arising out of a
willful violation may be commenced within three years
after the cause of action accrued.” 29 U.S.C. § 255(a).
ESSG’s relationship with TBG Logistics and Sync
Staffing ended on July 27, 2014, and this suit was not
filed until August 30, 2016. Thus, ESSG’s liability turns
entirely on whether its violations of the FLSA were
“willful” such that the three-year limitations period
applies.
In 1988, the Supreme Court held “willful” in the
context of the FLSA refers “to conduct that is not merely
negligent.” McLaughlin v. Richland Shoe Co., 486 U.S.
128, 133 (1988). In the Supreme Court’s view, an
employer does not act “willfully” if it merely knew “the
FLSA was in the picture.” Id. Rather, an employer acts
“willfully” if it “knew or showed reckless disregard for
the matter of whether its conduct was prohibited by the
statute.” Id. After that decision, the Ninth Circuit has
repeatedly addressed the type of behavior that can
qualify as “willful.” Those decisions have adopted a
relatively broad view of what will qualify as an employer
engaging in “reckless disregard” of its obligations.
As outlined by the Ninth Circuit, “willful”
behavior does not require “an employer ... knowingly

A-27

have violated the FLSA.” Alvarez v. IBP, Inc., 339 F.3d
894, 908 (9th Cir. 2003). Instead, an employer acts
willfully when it “disregard[s] the very possibility that it
[is] violating the statute.” Id. at 908–09.
Thus, an employer may act with reckless
disregard if the employer was “on notice of its FLSA
requirements, yet [took] no affirmative action to assure
compliance with them.” Flores v. City of San Gabriel,
824 F.3d 890, 906 (9th Cir. 2016). The underlying facts
in Flores are helpful for determining whether ESSG’s
behavior should be deemed willful.
In Flores, the employer “was aware of its
obligations under the FLSA” but the record contained
“no evidence of affirmative action taken by the
[employer] to ensure that its [compensation practices]
complied with the FLSA.” Id. It was “undisputed” the
employer had “failed to investigate whether its
[compensation scheme] complied with the FLSA at any
time following” the initial adoption of that scheme. Id. In
fact, the employer “put forth no evidence of any actions it
took to determine whether its [compensation scheme]
complied with the FLSA, despite full awareness of its
obligation to do so under the Act.” Id. Based on those
facts, the employer’s behavior qualified as “willful.”
Like the employer in Flores, it is undisputed
ESSG was aware of its obligations under the FLSA. It is
also undisputed ESSG—through its designated agent
Haluptzok—received information that its employees
were working more than 40 hours. Despite that
knowledge, ESSG processed the payroll without
conducting any investigation into whether the employees

A-28

were entitled to overtime. Using the language of Flores,
ESSG “was aware of its obligations under the FLSA,”
knew the employees were working more than 40 hours,
but took no “affirmative action ... to ensure” the payroll
processing was correct. Id. In these circumstances,
ESSG willfully violated the FLSA as a matter of law.
ESSG disagrees with this conclusion and offers a
variety of unusual legal arguments why there is at least
a question of fact regarding its alleged willfulness. Those
legal arguments revolve around ESSG’s size and its
contention that it cannot be responsible for Haluptzok’s
knowledge and actions. As briefly explored below,
ESSG’s arguments have no merit.
ESSG first claims it could not have acted willfully
because it is a large company, processing a large number
of payroll transactions, and it only violated the FLSA a
handful of times. According to a self-conducted audit of
its payroll transactions, ESSG violated the FLSA in only
0.3% of all payroll transactions during the time period.
(Doc. 102 at 10). Given that purported record of
compliance, ESSG believes “[i]t would be extremely
impractical to require a company ... to conduct a
companywide audit on a whim to look for a problem that
didn't exist and which it did not even suspect existed.”
(Doc. 102 at 11). This argument is not entirely coherent
but to the extent the Court can understand it, ESSG
misunderstands how the FLSA operates.
The incoherent portion of this argument is ESSG’s
assertion that it would be “impractical” to require it “to
look for a problem that didn't exist.” It is undisputed
that ESSG did not pay overtime owed to its employees.
Thus, to the extent ESSG is arguing an audit would

A-29

have been “impractical” because it would not have
uncovered violations, the facts of this case prove
otherwise.
The coherent portion of this argument is ESSG’s
belief that it would be “impractical” for a large company
to pay every employee in the manner required by the
FLSA. The statute, however, does not contain an
exemption for large employers. That is, an employer
must comply with the FLSA no matter how large it is or
how many payroll transactions it processes. And while a
large employer might commit some FLSA violations
unknowingly—such as through typographical errors—
that is not the type of errors committed here. In this
case,
Haluptzok
repeatedly
processed
payroll
information where employees had worked more than 40
hours. Haluptzok had no reason to believe those
employees were exempt from the FLSA’s overtime
provisions but she processed the payroll without
overtime pay. Such knowing violations of the FLSA
cannot be deemed non-willful merely because ESSG is a
large employer.
ESSG next claims it did not behave willfully
because it delegated its FLSA compliance obligations to
Haluptzok, a low-level employee, and high-ranking
employees never learned of the violations. ESSG offers
no authority recognizing this as a plausible basis for an
employer to avoid FLSA liability. And to the extent
relevant authority exists, it is contrary to ESSG’s
position.
ESSG appears to believe an employer can commit
a willful violation of the FLSA only if the relevant action

A-30

was taken by an individual carrying the formal title of
“manager” or “supervisor.” ESSG offers no authority in
support of this position and the Court has been unable to
find any case adopting such an approach. The lack of
applicable authority is not surprising because ESSG’s
position would create a very strange incentive for
employers. Under ESSG’s argument, an employer could
insulate itself from FLSA liability for willful violations
by delegating its payroll practices to low-level
employees. If an employer ensured no high-ranking
employees were involved in payroll processing, FLSA
violations would never qualify as “willful.” The FLSA
was not meant to incentivize employers in this manner.
Cf. Parth v. Pomona Valley Hosp. Med. Ctr., 630 F.3d
794, 799 (9th Cir. 2010) (“Congress’s purpose in enacting
the FLSA was to protect all covered workers from
substandard wages and oppressive working hours.”).
In a related argument, ESSG contends FLSA
violations committed by a low-level employee should not
be imputed to the employer. Again, ESSG provides no
authority indicating an employee’s rank within an
organization is the crucial inquiry. Rather, the relevant
inquiry is whether a particular employee was the
individual responsible for making pay decisions or
ensuring FLSA compliance. As noted by other courts, an
employer that delegates FLSA compliance to a
particular employee must be held responsible for that
employee’s actions. See Chao v. Barbeque Ventures, LLC,
547 F.3d 938, 943 (8th Cir. 2008) (quoting cases). To hold
otherwise would “nullify the [FLSA].” Id.
Here, ESSG structured its business such that
Haluptzok was the sole individual responsible for

A-31

receiving time records, processing those records, and
deciding whether employees should be paid overtime.
ESSG effectively delegated all of its FLSA compliance to
Haluptzok. Regardless of Haluptzok’s position in ESSG’s
hierarchy, she was the only individual who could
possibly act on behalf of ESSG regarding overtime
decisions. In such circumstances, Haluptzok’s knowledge
and behavior must be imputed to ESSG.
Finally, ESSG presents an argument regarding
the “collective scienter doctrine.” (Doc. 102 at 7). It is
unclear what, precisely, ESSG has in mind with this
argument but it appears to be another way of asserting
Haluptzok’s knowledge should not be imputed to ESSG.
As far as the Court can tell, however, no federal decision
has ever used the “collective scienter” doctrine in a case
involving the FLSA. The doctrine usually appears in
securities fraud class actions. See, e.g., Glazer Capital
Mgmt., LP v. Magistri, 549 F.3d 736, 743 (9th Cir. 2008).
ESSG offers no explanation why the doctrine should be
imported into the FLSA context and the Court cannot
conceive of one.
Neither ESSG’s size nor its decision to delegate
FLSA compliance to Haluptzok prevents a finding of
willfulness. The undisputed facts are that Haluptzok
knew employees were working more than 40 hours but
not being paid overtime. Haluptzok made no effort to
determine whether that was lawful and the illegal
behavior continued for more than a year, with Haluptzok
repeatedly dismissing warnings that such pay violated
the FLSA. Under these facts, ESSG willfully violated the
FLSA. Thus, the three-year statute of limitations

A-32

applies. Plaintiff will be directed to submit a form of
judgment to be entered against ESSG.
Accordingly,
IT IS ORDERED the Motion for Summary Judgment
(Doc. 97) is GRANTED.
IT IS FURTHER ORDERED no later than July 6,
2018, Plaintiff shall submit a proposed form of judgment
containing the exact amount of judgment to be entered
against ESSG.

A-33

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Thomas E Perez, et al.,
Plaintiffs,
v.
TBG Logistics LLC, et al.,
Defendants.
No. CV-16-02916-PHX-ROS
ORDER
The Court, having reviewed the stipulation of the
parties regarding dismissal of New Way Staffing, LLC dba
Sync Staffing and Daniela Rodriguez, and good cause
appearing,
IT IS ORDERED the stipulation (Doc. 92) is
GRANTED. Defendants New Way Staffing, LLC dba
Sync Staffing and Daniela Rodriguez are hereby dismissed
with prejudice from this action.
This dismissal is limited to New Way Staffing, LLC
dba Sync Staffing and Daniela Rodriguez only, and the
action against the remaining defendants continues.
Plaintiff and Defendants New Way Staffing, LLC
and Daniela Rodriguez shall bear his, her or its own fees and
other expenses incurred by such party in connection with

A-34

any stage of this proceeding, including but not limited to
attorneys’ fees, which may be available under the Equal
Access to Justice Act, as amended.
Dated this 25th day of September, 2017.
/s/ Honorable Roslyn O. Silver
Senior United States District Judge

A-35

United States District Court, D. Arizona
Thomas E PEREZ, Plaintiff,
v.
TBG LOGISTICS LLC, et al., Defendants.
No. CV-16-02916-PHX-ROS
Signed 12/16/2016
ORDER
Honorable Roslyn O. Silver, Senior United States
District Judge
The Secretary of Labor has sued a large group of entities
and one individual for violating the Fair Labor
Standards Act (“FLSA”).
Defendant Employer Solutions Staffing Group, LLC, and
its related entities (collectively “ESSG”), filed crossclaims for indemnification or contribution against most
of the other defendants. The Ninth Circuit has not
addressed whether such cross-claims are allowed under
the FLSA but other circuits have concluded they are not.
Based on that authority, the cross-claims will be
dismissed.
BACKGROUND
According to the Secretary of Labor’s complaint,
Defendant TBG Logistics LLC (“TBG”) employs workers
to unload tractor trailers containing groceries. (Doc. 39

A-36

at 5). Defendant Matthew Connors is the “managing
agent” of TBG. In early 2013, TBG entered into an
agreement with Defendants Sync Staffing and ESSG.
Under that agreement, Sync Staffing and ESSG
provided employees to TBG to perform the work of
unloading groceries. The employees received paychecks
from ESSG and were under the control of ESSG but
were also under the control and supervision of TBG,
Connors, and Sync Staffing.
In July or August 2014, Sync Staffing decided to
replace ESSG with Defendant Countrywide Payroll &
HR Solutions, Inc. (“Countrywide”). After ESSG was
replaced, the employees received their paychecks from
Countrywide and were subject to the control of
Countrywide. The employees’ daily tasks, however, did
not change and they remained subject to the
“supervision and control” of TBG, Connors, and Sync
Staffing.
The Secretary of Labor alleges the “economic
realities of the employment relationship” show that,
regardless of who was ostensibly identified as the
employer, TBG, ESSG, Connors, Sync Staffing, and
Countrywide all qualified as an “employer” under the
FLSA. (Doc. 39 at 7). The Secretary of Labor has named
these entities and Connors as defendants in this case,
alleging that from 2013 to the present the defendants
required the employees work more than forty hours in a
workweek but failed to pay the employees an overtime
premium for the hours worked over forty. Based on this,
the Secretary of Labor seeks a permanent injunction
requiring the defendants comply with the FLSA as well
as damages in the amount of the unpaid overtime. The

A-37

Secretary of Labor asserts all the defendants should be
held “jointly and severally liable.” (Doc. 39 at 7).
In responding to the complaint, ESSG asserted
cross-claims
seeking
“indemnification
and/or
contribution” from TBG, Connors, and Sync Staffing.
(Doc. 40 at 10). The four cross-claims consist of a claim
for indemnification under the FLSA, a claim for
contribution
under
the
FLSA,
a
claim
for
indemnification and contribution under federal common
law, and a claim for “contractual indemnity and/or
contribution.”
The first three cross-claims are brought against
TBG, Connors, and Sync Staffing but the contractual
indemnity cross-claim is brought solely against Sync
Staffing. All three cross-defendants moved to dismiss,
arguing the cross-claims are not supported by sufficient
facts and, even if they were, the underlying legal
theories are not authorized by federal law.
ANALYSIS
Instead of discussing cross-defendants' argument
that the cross-claims are not supported by sufficient
factual allegations, it is more efficient to determine if the
underlying legal theories are viable. See Balistreri v.
Pacifica Police Dep't, 901 F.2d 696, 699 (9th Cir. 1988)
(“Dismissal can be based on the lack of a cognizable legal
theory or the absence of sufficient facts alleged under a
cognizable legal theory.”). If the underlying legal
theories are not viable, there is no need to grant leave to
amend. AE ex rel. Hernandez v. Cty. of Tulare, 666 F.3d

A-38

631, 636 (9th Cir. 2012) (leave to amend need not be
given if it would be futile).
ESSG’s cross-claims fall into three categories. The
first category covers ESSG’s cross-claims for either
indemnity or contribution under the FLSA. The second
category covers ESSG’s cross-claim for indemnity or
contribution under federal common law. And the third
category covers ESSG’s cross-claim for contractual
indemnity. ESSG has agreed the claims in the first
category are not viable and must be dismissed.6
Therefore, the Court need only resolve whether the
federal common law and contractual indemnity crossclaims are viable.
I. Federal Common Law Does not Authorize
Indemnity or Contribution
When a federal statute does not explicitly or
implicitly authorize a claim for indemnification or
contribution, such a claim may still exist “via the power
of the courts to formulate federal common law.”
Mortgages, Inc. v. U.S. Dist. Court for Dist. of Nev., 934
F.2d 209, 212 (9th Cir. 1991). Relying on this, ESSG
argues the Court should formulate a common law
entitlement to indemnification or contribution between
FLSA defendants. But the power to fashion federal
common law is very limited. Nw. Airlines, Inc. v. Transp.
Workers Union of Am., AFL-CIO, 451 U.S. 77, 95 (1981).
6

ESSG states “[e]veryone agrees that the FLSA does not speak
directly or indirectly to the particular question of remedies between
or among co-defendants....” (Doc. 51 at 7).

A-39

The power is limited to “those few instances where a
federal rule of decision is necessary to protect uniquely
federal interest[s].” Mortgages, 934 F.2d at 213
(quotation marks and citation omitted). The Supreme
Court has held a desire for contribution among violators
of a federal statute “does not implicate uniquely federal
interests of the kind that oblige courts to formulate
federal common law.” Texas Indus., Inc. v. Radcliff
Materials, Inc., 451 U.S. 630, 642 (1981). The Ninth
Circuit has interpreted that statement to mean “[t]he
right of recovery from another wrongdoer”—whether
contribution or indemnification—does not present a
situation where courts should formulate federal common
law. Mortgages, 934 F.2d at 213. Therefore, federal
common law does not authorize ESSG’s claims for
contribution or indemnification under the FLSA.
ESSG disagrees with this analysis and offers its
own views of when courts should formulate federal
common law. ESSG provides a lengthy discussion of
common law principles, focusing on cases and treatises
from the 19th Century. (Doc. 51 at 10-12). ESSG goes so
far as to claim the Supreme Court’s decision in “Texas
Industries was wrongly decided” and should be limited
as applying only to the federal antitrust statutes at issue
in that case. (Doc. 51 at 17). But the Ninth Circuit has
not limited Texas Industries to the antitrust context. See
Mortgages, 934 F.2d at 213 (no right to indemnification
or contribution under the False Claims Act); United
States v. Guillen-Cervantes, 748 F.3d 870, 875 (9th Cir.
2014) (no right to contribution under federal
immigration laws). And ESSG offers no reason to believe
the Ninth Circuit, having extended Texas Industries to
other federal statutes, would ignore it in the FLSA

A-40

context. The Ninth Circuit has held the potential need
for one wrongdoer “to recover from another wrongdoer”
does not present an appropriate situation for
formulation of a federal common law remedy. Mortgages,
934 F.2d at 213. Following that ruling, ESSG’s federal
common law cross-claim will be dismissed.
II. Claim for Contractual Indemnity is Preempted
ESSG’s only remaining cross-claim is for
contractual indemnity and it is asserted against one
defendant, Sync Staffing. According to the crosscomplaint, ESSG entered into an agreement with Sync
Staffing which contained a provision stating Sync
Staffing would “indemnify, defend and hold harmless
[ESSG] ... from any and all ... claims for damages of any
nature whatsoever” including “violations of wage and
hours laws,” such as the FLSA. (Doc. 40-1 at 3). ESSG
alleges any liability to the Secretary of Labor in this case
will be the result of “wrongful acts or omissions of Sync
Staffing.” Thus, ESSG believes the contractual provision
entitles it to indemnification from Sync Staffing. (Doc. 40
at 14). Sync Staffing has moved to dismiss, arguing the
contractual indemnity provision is against public policy.
(Doc. 47 at 10). Sync Staffing is correct.
The strong majority of courts to address the issue
have concluded the type of contractual indemnity
provision at issue here is not enforceable. Courts
describe such provisions as against public policy or,
alternatively, as preempted by federal law. See, e.g.,
McDougal v. G & S Tobacco Dealers, L.L.C., 712 F.
Supp. 2d 488, 497 (N.D.W. Va. 2010) (discussing cases
and finding state-law cross-claims “preempted” and

A-41

against “public policy”). Regardless of the exact label
courts apply when dismissing such claims, the end result
is always the same: any attempt by a defendant to shift
its liability to another entity or individual is found
unenforceable.
The
Ninth
Circuit
has
not
addressed
indemnification claims under the FLSA but the Second
Circuit has.
In that case, one co-employer was
attempting to assert a state-law cross-claim for
indemnification against another co-employer. The
Second Circuit summarily concluded that cross-claim
was preempted by federal law. Herman v. RSR Sec.
Servs. Ltd., 172 F.3d 132, 144 (2d Cir. 1999). In doing so,
the Second Circuit cited to cases from the Fourth, Fifth,
and Tenth Circuits. Those cases involved slightly
different situations of an FLSA defendant seeking
indemnity from an employee. Id. An employer seeking
indemnification from an employee raises unique
concerns about frustrating the intent of the FLSA.
LeCompte v. Chrysler Credit Corp., 780 F.2d 1260, 1264
(5th Cir. 1986) (allowing indemnity claim against
employees
“would
deprive
them
of
overtime
compensation to which the [FLSA] otherwise entitles
them”). But the Second Circuit apparently did not find
this distinction noteworthy.7 And the underlying
rationale of the decisions, whether involving cross-claims
against co-employers or employees, is that courts should
7

Outside the context of the FLSA, courts have recognized
contractual indemnity cross-claims may be preempted. See Equal
Rights Ctr. v. Niles Bolton Assocs., 602 F.3d 597 (4th Cir. 2010)
(cross-claims for contractual indemnity were preempted by
Americans with Disabilities Act and Fair Housing Act).

A-42

“foster a climate in which compliance with the
substantive provisions of [the FLSA will] be enhanced.”
Martin v. Gingerbread House, Inc., 977 F.2d 1405, 1408
(10th Cir. 1992).
ESSG offers no convincing reason to believe the
Ninth Circuit would disagree with the approach taken in
other circuits. The Ninth Circuit has already adopted
such an approach in the context of litigation under the
False Claims Act. Cell Therapeutics, Inc. v. Lash Grp.,
Inc., 586 F.3d 1204, 1208 (9th Cir. 2009) (recognizing
contractual indemnity cross-claims are not permitted
under the False Claims Act). That approach is justified
by a desire to avoid weakening the False Claims Act. See
U.S. ex rel. Madden v. Gen. Dynamics Corp., 4 F.3d 827,
830 (9th Cir. 1993) (defendant should not be given
“opportunity to offset its liability”). The same logic
applies here. Allowing ESSG’s state-law contractual
indemnity claim would have the practical effect of
allowing it to offset FLSA liability and thereby weaken
its incentive to comply with the FLSA. The contractual
indemnity cross-claim is either against public policy or
preempted by federal law.8

8

Sync Staffing requests the Court enter a Rule 54(b) judgment on
the cross-claims. Such judgments are meant to be the exception, not
the rule. See Curtiss-Wright Corp. v. Gen. Elec. Co., 446 U.S. 1, 10
(1980). This case is not complicated and there is no reason to
complicate it by entering a final judgment regarding a single piece
and, potentially, allowing a piecemeal appeal. Wood v. GCC Bend,
LLC, 422 F.3d 873, 879 (9th Cir. 2005). Therefore, the request for a
Rule 54(b) judgment will be denied.

A-43

III. Sync Staffing Must Retain Counsel
Sync Staffing filed its motion to dismiss through
counsel but that counsel subsequently moved to
withdraw. (Doc. 49). In granting that request, the Court
ordered Sync Staffing to obtain new counsel and have
that counsel file a notice of appearance by December 5,
2016. (Doc. 50). Sync Staffing did not do so. As
mentioned in the previous order, Sync Staffing’s failure
to appear through counsel may lead to entry of default
judgment. (Doc. 50).
Accordingly,
IT IS ORDERED the Motion to Dismiss (Doc. 47) is
GRANTED to the extent the cross-claims are
DISMISSED. The request for entry of a Rule 54(b)
judgment is DENIED.
IT IS FURTHER ORDERED Sync Staffing shall
obtain counsel and file a notice of appearance within ten
days of this order.
IT IS FURTHER ORDERED at the scheduling
conference, the parties shall be prepared to discuss
whether Sync Staffing’s refusal to participate in this
case through counsel will impact liability, in particular
the fact of joint and several liability amongst all
defendants.

A-44

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Thomas E PEREZ, Plaintiff,
v.
TBG LOGISTICS LLC, et al., Defendants.
No. CV-16-02916-PHX-ROS
ORDER
The group of defendants referred to as “ESSG”
has moved for leave to file a third-party complaint
against Albertsons Companies, LLC, and Albertson’s,
LLC (collectively, “Albertson’s”). ESSG
admits
this
request is foreclosed by the Court’s prior order granting
a motion to dismiss. (Doc. 61). Thus, ESSG’s motion
seeks reconsideration of that order. ESSG’s arguments
for reconsideration, however, are not new and the Court
considered them in issuing the prior order. Accordingly,
the motion for leave to file a third-party complaint and
for reconsideration will be denied.
Anticipating this conclusion, ESSG requests the
Court allow it “to join Albertsons to this action as a
third-party defendant, and certify[] this matter under
FRCP 54(b) for interlocutory appeal.” (Doc. 82 at 4). It
is not clear what ESSG means by this request. If
Albertson’s were joined as a third-party defendant, there
would be no “final judgment” sufficient to trigger
Federal Rule of Civil Procedure 54(b). Assuming ESSG
is requesting the Court certify this order under 28
U.S.C. § 1292(b), ESSG has not made the requisite
showing. ESSG cannot meet at least two of the three
requirements for an interlocutory appeal. See Couch v.

A-45

Telescope Inc., 611 F.3d 629, 633 (9th Cir. 2010)
(“Certification under § 1292(b) requires the district court
to expressly find in writing that all three § 1292(b)
requirements are met.”). ESSG has not shown a
“substantial ground for difference of opinion” exists nor
has it established that “an immediate appeal . . . may
materially advance the ultimate termination of the
litigation.” 28 U.S.C. § 1292(b). The request for either a
Rule 54(b) judgment or certification for interlocutory
appeal will be denied.
Accordingly,
IT IS ORDERED the Motion for Leave to File Third
Party Complaint and Motion for Reconsideration (Doc.
68) is DENIED.
Dated this 27th day of March, 2017.
Honorable Roslyn O. Silver, Senior United States
District Judge

A-46

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
R. Alexander Acosta, Secretary of Labor,
Plaintiff,
v.
TBG Logistics, LLC, et al.,
Defendants.
No. 2:16-cv-02916-ROS
DECLARATION OF MICHAELA HALPUTZOK IN
SUPPORT
OF
DEFENDANTS
EMPLOYER
SOLUTIONS
STAFFING
GROUP,
LLC,
EMPLOYER SOLUTIONS STAFFING GROUP II,
LLC, EMPLOYER SOLUTIONS STAFFING GROUP
III,
LLC,
AND
EMPLOYER
SOLUTIONS
STAFFING GROUP IV, LLC, IN OPPOSITION TO
PLAINTIFF’S
MOTION
FOR
SUMMARY
JUDGMENT
I, Michaela Halputzok, declare and certify that:
1.
Minnesota.

I am an adult resident of the state of

2.
I currently am a Payroll Integration
Coordinator at Employer Solutions Staffing Group, LLC,
Employer Solutions Staffing Group II, LLC, Employer
Solutions Staffing Group III, LLC and Employer
Solutions Staffing Group IV, LLC (hereafter “ESSG”).
3. I am making this Declaration in support of
DEFENDANTS
EMPLOYER
SOLUTIONS

A-47

STAFFING
GROUP,
LLC,
EMPLOYER
SOLUTIONS
STAFFING
GROUP
II,
LLC,
EMPLOYER SOLUTIONS STAFFING GROUP III,
LLC, AND EMPLOYER SOLUTIONS STAFFING
GROUP IV, and LLC, IN OPPOSITION TO
PLAINTIFF’S
MOTION
FOR
SUMMARY
JUDGMENT.
4. I was hired in August of 2012 by ESSG as an
entry level payroll processor.
5. From August 2012 through July 2015 I was a
payroll processor for ESSG.
6. In November 2012, I was assigned my first
payrolls to process independently. Among these first
payrolls was an account for TBG Logistics, a new client
of ESSG.
7. I received the first hours worked for employees
assigned at TBG Logistics on November 12, 2012 from
Jessica Stokham, a contact at Ascend Staffing.
8. I processed all hours for this first payroll batch
paying regular wages for hours up to 40, and an
overtime premium of 1.5 times regular wage for hours
over 40 for each individual ESSG employee assigned to
TBG Logistics.
9. I emailed over to Jessica Stokham at Ascend a
payroll proof showing what hours would be payed to the
ESSG employees before finalizing the payroll and
issuing the checks.
10. Jessica called me on the telephone and told
me she would not approve the payroll proof showing
overtime wages. Instead, she directed me to process the

A-48

payroll with hours paid as listed on the spreadsheet sent
by TBG. This TBG spreadsheet showed overtime for few
employees, but for most all the hours worked, even those
in excess of 40 hours for the workweek, were shown as
straight time regular wage hours with no overtime
premium.
11. I did not receive details but I believed there
must be an exception for why the payroll would be
processed in that manner and not include overtime
hours.
12. I did not have any discussion with Doyle
Piper, my supervisor at the time, or with any manager
or owner at ESSG as to whether I was approved to
process the payroll in the manner requested by Jessica
Stokham at Ascend.
13. I continued processing the TBG Logistics
payroll in this manner for the entire period in question.
14. I recall that at some later time I spoke with
Ross Plaetzer, Client Services Director for ESSG,
regarding overtime relating to employees recruited
through Sync Staffing.
15. I do not recall the date or the specific subject
matter regarding this conversation.
16. To the best of my recollection, I believe this
discussion occurred after we received a company-wide
email affirming that all hours over 40 in a work week
were to be paid at the appropriate overtime premium
rate. I do not recall the specifics of this email, but
believe it was sent out by Ross Plaetzer.

A-49

17. I recall there being a potential exception to
overtime requirements as I understood them potentially
due to the type of work being performed by employees at
TBG Logistics.
18. At no time during the relevant time frame did
I have any understanding of what type of work ESSG
employees were, in fact, performing at TBG Logistics.
19.
If I have any questions about payroll
processing, I have always been instructed to seek
guidance from a payroll team manager or supervisor.
20. I did have some conversations with Joe
Rodriguez of Sync Staffing regarding overtime
requirements, specifically weighted average when an
ESSG employee works at more than one site location
during the work week.
21. I informed Mr. Rodriguez at that time that if
any ESSG employee works over 40 hours, they must be
paid an overtime premium. I instructed him that we
would not be allowed to process any hours over 40 at a
regular rate for any such ESSG employees.
22. During the time I was processing the payroll
for TBG Logistics, I did not believe I was in any violation
of the Fair Labor Standards Act or any other wage law.
23. During the time I was processing the payroll
for TBG Logistics, I have no recollection of any
conversations with Matt Connors at TBG Logistics in
which I agreed not to pay overtime wages.
24. I first became aware of potential issues with
this payroll in early 2016 when I learned the

A-50

Department of Labor was requesting records relating to
TBG Logistics.
25. At that time, I had already been promoted to
Lead Payroll Account Manager.
26. I was promoted to Lead Payroll Account
Manager in July 2015, a year after I ceased work on the
TBG Logistics account. This position required me to fill
in for other payroll processing employees who were out
of the office, but did not result in my oversight of other
employees or give me decision-making authority.
27. On July 23, 2014, I did send an email to a
colleague, Rebekah Scherer, also an entry level payroll
processor, regarding dismissal of overtime alerts for
TBG Logistics on the payroll software system. The TBG
Logistics payroll was among a number that would be
transitioning from me to Ms. Scherer at that time.
28.
I was not Ms.
supervisor at any time.

Scherer’s manager or

29.
To my knowledge, Ms.
Scherer never
processed any payroll for TBG Logistics due to the
relationship ending with Sync Staffing and TBG
Logistics around July 27, 2014.
30. During the period in which I processed payroll
for ESSG employees assigned to TBG Logistics, I did not
receive any calls or complaints from employees claiming
they were being paid incorrectly or at an improper wage
rate.
31. Our payroll processing software did provide
an alert message when more than 40 hours were being
processed as regular pay. I did not show this alert to my

A-51

supervisor, manager, or any owner of ESSG during the
time in which it appeared on my screen.

A-52

Pursuant to 28 U.S. Code § 1746, I certify under
penalty of perjury that the foregoing is true and
correct.
Executed on December 15, 2017.
/s/ Michaela Haluptzok
Michaela Haluptzok (Signature)

A-53

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
R. Alexander Acosta, Secretary of Labor,
Plaintiff,
v.
TBG Logistics, LLC, et al.,
Defendants.
No. 2:16-cv-02916-ROS
DECLARATION OF CHRISTOPHER LEVINE IN
SUPPORT
OF
DEFENDANTS
EMPLOYER
SOLUTIONS
STAFFING
GROUP,
LLC,
EMPLOYER SOLUTIONS STAFFING GROUP II,
LLC, EMPLOYER SOLUTIONS STAFFING GROUP
III,
LLC,
AND
EMPLOYER
SOLUTIONS
STAFFING GROUP IV, LLC, IN OPPOSITION TO
PLAINTIFF’S
MOTION
FOR
SUMMARY
JUDGMENT
I, Christopher Levine, declare and certify that:
1.
I am an adult resident of the state of
Minnesota.
2. I am the CEO of Employer Solutions Staffing
Group, LLC, Employer Solutions Staffing Group II, LLC,
Employer Solutions Staffing Group III, LLC and
Employer Solutions Staffing Group IV, LLC (hereafter
“ESSG”).
3. I am making this Declaration in support of
DEFENDANTS
EMPLOYER
SOLUTIONS

A-54

STAFFING
GROUP,
LLC,
EMPLOYER
SOLUTIONS
STAFFING
GROUP
II,
LLC,
EMPLOYER SOLUTIONS STAFFING GROUP III,
LLC, AND EMPLOYER SOLUTIONS STAFFING
GROUP IV, and LLC, IN OPPOSITION TO
PLAINTIFF’S
MOTION
FOR
SUMMARY
JUDGMENT.
4. At all times relevant to this matter, I was the
CEO of ESSG.
5. I was involved in the process of obtaining the
staffing contract for TBG Logistics to become a client of
ESSG in 2012.
6. As part of that process, ESSG retained Sync
Staffing to in order to recruit and facilitate placement of
temporary employees into the assignment at TBG
Logistics.
7. During this process, I had no conversations
with Joe Rodriguez of Sync Staffing or Matt Connors of
TBG Logistics regarding any agreement to not pay
overtime for hours worked over 40 hours in a work week
by ESSG employees assigned to the TBG worksite.
Subsequently, I had no additional conversations with
either of these men regarding overtime during the period
in question.
8. I was not aware of any violations of any federal
overtime rule on this account during the timeframe in
which the payroll was being processed.
9. I had no conversations with Michaela
Haluptzok, the ESSG payroll processor assigned to this
account, regarding overtime.

A-55

10. I gave no approval, verbal or otherwise, to
disregard federal overtime rules for any ESSG
employees assigned at TBG Logistics.
11. I became aware of the overtime violations at
TBG Logistics after being notified that the Department
of Labor was requesting records relating to employees in
December 2015.
12. After being notified of the Department of
Labor investigation, in early 2016, I oversaw a complete
audit of ESSG’s payroll history nationwide. Through this
audit, no additional violations of FLSA standards were
found or identified by any payroll processor on any
account at any time.
13. As a pattern of regular business practice, I
regularly provided guidance companywide that directed
payroll processors to always follow any applicable
overtime law or rule.
14. I am aware that our payroll software system
does provide an alert showing when there is a potential
error with regard to overtime wages.
15. At no time did I ever provide direction or
authorization to any employee to dismiss these alerts.
16. To my knowledge, there is no process that
allows me to see or become aware of when an employee
dismisses an alert.
17. There is no log available on the payroll
software system to show a record of alerts that have
been dismissed by any employees.
18. Prior to being notified of the Department of
Labor investigation, I did not have any conversations

A-56

with Michaela Haluptzok regarding her decision to
dismiss the overtime alert for the ESSG employees
assigned to TBG Logistics.
19. As a result of not paying and billing the overtime
rate for the involved employees assigned to work at
TBG, ESSG lost approximately $31,408.31 in revenue
during the relevant time period.
20. During this time frame, the ESSG processed 317,497
payroll transactions nationwide. I do not personally
review each and every transaction. The transactions
with unpaid overtime in this case total 1,103, which is
0.35% of the payroll transactions.
21. In 2013 ESSG issued 57,978 W2s nationwide and in
2014 issued 60,776 W2s nationwide.
22. Payroll administrators are provided with training
and direction and then directed to process their assigned
payrolls on a weekly basis, with the understanding that
they will seek guidance and direction from a supervisor
on an as needed basis.
23. In approximately June 2015 payroll processors were
given a title change to Payroll Account Manager. This
title change did not result in any change of duties.
Payroll Account Managers do not oversee other
employees and do not hold any decision making or
supervisory authority.
24. The Outsource Agreement between ESSG and Sync
Staffing sets out responsibilities of each party. A true
and correct copy of this agreement is attached as Exhibit
1.

A-57

Pursuant to 28 U.S. Code § 1746, I certify under
penalty of perjury that the foregoing is true and
correct.
Executed on December 15, 2017.
/s/ Christopher Levine
Christopher Levine (Signature)

